HHS/OIG-Audit--"Review of the Health Care Financing Administration's Development of a Prospective Payment System for Skilled Nursing Facilities, (A-14-98-00350)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Health Care Financing Administration's Development of
a Prospective Payment System for Skilled Nursing Facilities," (A-14-98-00350)
July 29, 1998
Complete Text of Report is available in PDF format
(364 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The Health Care Financing Administration (HCFA) is currently developing a prospective
payment system (PPS) for skilled nursing facilities. This system is to be implemented
for cost reporting periods beginning on or after July 1, 1998. We have reviewed
HCFA's methodology for developing the new system and believe it will result
in PPS rates that are inflated. The HCFA did not adjust base year costs (Fiscal
Year 1995) for medically unnecessary care and/or the amount of improper payments
that were made to skilled nursing facilities. If improper payments are not eliminated
from the base period costs, unwarranted financial windfalls will be realized
by skilled nursing providers. Consequently, we are recommending that HCFA include
a provision in the interim final rule that indicates these proposed rates will
be further reviewed and adjusted downward to reflect the amount of improper
payments in the base year costs.